HHS/OIG-Audit--"Audit of Community Mental Health Centers Construction Grant Program - Phase I, (A-05-91-00050)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Community Mental Health Centers Construction Grant Program
- Phase I," (A-05-91-00050)
October 2, 1991
Complete Text of Report is available in PDF format
(1.92 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our audit of Community Mental Health
Centers (CMHC) construction grant reviews performed by a contractor, Continuing
Medical Education, Inc. (CME), for the National of Institute of Mental Health,
(NIMH) Alcohol, Drug Abuse and Mental Health Administration. We found CME generally
identified and reported areas of grantee noncompliance for the grantees we reviewed
except for the provision of a reasonable volume of below-cost or free services
to persons unable to pay. However, CME reports generally contained sufficient
information for NIMH to take actions to bring the grantees back into compliance,
initiate recovery or extend the service obligation date. However, NIMH did not
adequately monitor or resolve reported deficiencies.